-239

ORIGINAL
FILED
AUG 0 6 2021

(F.T.C.A.) Civil Suit/Case No.

OFFICE OF THE Cl ERK
SUPREME COURT. UR*

IN THE
SUPREME COURT OF THE UNITED STATES

DANIEL LORING
Petitioner (Pro Se)
v.
UNITED STATES
Respondent

ON PETITION FOR
EXTRAORDINARY WRIT OF CERTIORARI
TO THE
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

PETITION FOR EXTRAORDINARY WRIT OF CERTIORARI

Prepared and Submitted bv:
Daniel Loring Petitioner (Pro Se)
512 S. Spring Ave., Apt. 306
Sioux Falls, SD 57104
(605) 310-3808

QUESTIONS) PRESSENTED
On www.pacermonitor.com
governments;

United

States

the

Courts

“OFFICIAL”

Publics

Domain

of the

Cases.

PACER

Service

Center

On

pacer@psc.uscourts.gov: under FAQ's. Question: I want to Delete or edit my filing:
Answer: You cannot delete or edit filings after they have been submitted through
CM/ECF. A fifing cannot be DELETED, cannot be EDITED and cannot be
REMOVED from the PUBLIC RECORD after it has been submitted and docketed on
PACER. Question(s) of extraordinary circumstances:
I.

Whether Petitioners fifing on May 14, 2018: Id. in Ref (Doc. rl9)
CERTIFICATE(s) OF SERVICE for (Doc. rl3), (Doc. rl4), (Doc. rl5), (Doc. rl6),
(Doc. rl7) and (Doc. rl8); to the Executive Office for United States Attorneys,
General Counsel dated May 4. 2018: and a copy of the U.S.P.S. Priority Mail
Receipt and Delivery Notice as Proof of Service was REMOVED and
DELETED from the “OFFICIAL” Publics Domain of CIVIL DOCKET FOR
CASE #: 4:18-cv-04034-LLP: for a reason?

II.

Whether Petitioners fifing on May 14. 2018: Id. in Ref. (Doc. r20)
CERTIFICATE(s) OF SERVICE for (Doc. rll), (Doc. rl2), (Doc. rl3), (Doc. rl4),
(Doc. rl5), (Doc. rl6), (Doc. rl7) and (Doc. rl8); to the Office of the Attorney
General, United States Department of Justice; dated May 4. 2018: and a copy
of the U.S.P.S. Priority Mail Receipt and Delivery Notice as Proof of Service
was REMOVED and DELETED from the “OFFICIAL” Publics Domain of
CIVIL DOCKET FOR CASE #: 4:18-cv-04034^LLP: for a reason?

III.

Whether the United States District Court and/or the (USA) United States
Attorney “Office” knowingly, willfully and recklessly acted in bad faith and
violated 1725. Protection Of Government Processes — Obstruction Of Pending
Proceeding — 18 U.S.C. 1505 Section 1505 with the intent to mislead the
Public and fraudulently cover-up the wrongdoing to conceal the Merits of the
Case?
1

QUESTION(S) PRESSENTED
On April 3. 2018: this valid (F.T.C.A.) Legal Malpractice Action was brought
forward pursuant to 4-5.000 Tort Litigation of my Administrative Claims filed with
the United States Department of Justice, Office of the Inspector General, Civil Rights
and Civil Liberties Complaints Investigations Division. Where the District Court’s
deadline for the UNITED STATES Department of Justice, Executive Office for
United States Attorney’s, General Counsel to answer the Summons and Complaint
was June 8. 2018; Whereby, an Act of Congress, (F.T.C.A.) U.S.C. $ 2675(a):
I.

Whether the UNITED STATES did not dispute that a legal malpractice action
is properly brought under the FTCA?

II.

Whether the UNITED STATES did not dispute that it had a duty to provide
Loring with adequate legal representation in the Fair Housing Act case?

III.

Whether it was understood under the (F.T.C.A.) the United States Court
ORDER is FINAL JUDGMENT on the Merits of the Case?

IV.

Whether the (USA) United States Attorney “Office” Assistant United States
Attorney’s while acting under the color of federal law, knowingly and willfully
violated 1-4.000 - Standards Of Conduct. Conflicts of Interest and recklessly
“claimed” Defendant, United States of America; and recklessly “claimed”
Defendants, United States of America, United States Department of Justice,
Executive Office for United States Attorney’s, General Counsel to “intervene”
in this Administrative Proceeding with the intent to cover-up the wrongdoing
and conceal the (USA) Assistant United States Attorney’s misconduct in their
handling of an earlier civil lawsuit filed under the Fair Housing Act?

V.

Whether the United States District Court Judge while acting under the color
of federal law, whereby an Act of Congress, failed to be an Adjudicator to the
Rule of Law, then knowingly and willfully violated Code of Conduct for United

2

States Judges - Canon 1, Canon 2 and Canon 3 and recklessly Obstructed
Justice with the intent to mislead and misrepresent the Material Facts of the
case by making deceitful, ambiguous self-contradicting statements that are
half-truths; wherefore, if the truth be told, would the case have a different
conclusion?
VI.

Whether the parties listed in the proceedings while acting under the color of
federal law, knowingly, willfully and intentionally acted as “co-conspirators” to
Defraud the Government, to Defraud the United States, to Defraud the Public
and to Defraud the People and the Citizens of South Dakota of their Rights
and of their Right to know the truth about the Merits of the Case and have
violated the Public’s Trust and the Public’s Confidence?

VII.

Whether the parties listed in the proceedings while acting under the color of
federal law, knowingly, willfully and intentionally violated the

14th

Amendment Section 1 of the Federal Constitution, and recklessly Deprived
Petitioner of Citizenship, recklessly Deprived Petitioner of his Civil Rights and
Civil Liberties, recklessly Deprived Petitioner of Equal Protection of the Laws
and have maliciously caused Petitioner to suffer from the most inconceivable
damages a person could imagine; complete Depravation of the Right to Due
Process of Law, since August 28, 2015?
VIII.

Whether in 18-4034, the United States District Court, In Ref. (Doc. rllO),
SUMMARY JUDGMENT in favor of the United States of America; and in 202137; the 8* Circuits UNPUBLISHED PER CURIUM Opinion, JUDGMENT
is affirmed: creates conflict with the Merits on which this case was submitted,
creates conflict with an Act of Congress, creates conflict with the Supreme
Court of the United States, creates an inter-circuit conflict with the uniformity
of the 8th Circuits own en-banc rehearing and creates an inter-circuit conflict
with the harmonious Judicial processes of the United States Courts?

3

IX.

Whether this Legal Malpractice Action and Civil Lawsuit properly brought
against the UNITED STATES under the (F.T.C.A.) in the Supreme Court of
the United States is a Whistleblower Legal Malpractice LANDMARK Decision
Case and Civil Lawsuit by definition?

X.

Whether this Whistleblower Legal Malpractice LANDMARK Decision
Case/Civil Lawsuit properly brought against the UNITED STATES under the
(F.T.C.A.) In the Supreme Court of the United States; is of Significant National
Importance, is of Significant Public Interest and is of Significant Value to the
People and to the Citizens of South Dakota who are unknowingly at risk for
being victimized by the wrongdoer(s) who deceitfully and fraudulently have
settled the Case?

XI.

Whether this Whistleblower Legal Malpractice LANDMARK Decision Case
and Civil Lawsuit; DANIEL LORING v. UNITED STATES: is the 1st of its kind
of Legal Malpractice Action Civil Lawsuit to be properly brought against the
UNITED STATES under the (F.T.C.A.) In the Supreme Court of the United
States; and is of Historic Precedential Value?

4

LIST OF PARTIES TO THE PROCEEDINGS
The Parties to the proceedings in regard to the underlying Federal Fair
Housing Act Civil Rights Disability Discrimination Case/Lawsuit include: (USA)
Assistant United States Attorney, Civil Chief Diana Ryan, Assistant United States
Attorney Alison Ramsdell and United States District Court Judge, Karen E. Schreier.
The Parties in this Administrative Proceeding and valid (F.T.C.A.)
Whistleblower Legal Malpractice LANDMARK Decision Case and Civil Lawsuit
include: Daniel Loring (Petitioner Pro Se), and the United States Department Of
Justice, Executive Office for United States Attorney’s, General Counsel, UNITED
STATES as the Defendant.
The Parties to the proceedings in this Administrative Proceeding and valid
(F.T.C.A.) Whistleblower Legal Malpractice LANDMARK Decision Case and Civil
Lawsuit brought forward in this Petition for Extraordinary Writ of Certiorari in the
Supreme Court of the United States include: (USA) Assistant United States Attorney
Delia M. Druley, Assistant United States Attorney Meghan K. Roche and United
States District Court Judge, Lawrence L. Piersol.

5

RELATED PROCEEDINGS DIRECTLY ON REVIEW

I

1. In the United States District Court. Civil Case 18-4034 (filed April 3. 2018)
Daniel Loring (Plaintiff Pro Se) v. United States of America, UNITED STATES
Department of Justice, Executive Office for United States Attorney’s General
Counsel (Defendants). UNITED STATES as a party.
SUMMARY JUDGMENT in favor of the United States of America, dated March
17. 2020.
MOTION for Reconsideration, Denied April 14. 2020.
Civil Case 18-4034: captioned: Loring v. United States of America, et. al.
2. In the United States 8th Circuit Court of Appeals. Civil Case 20-2137
Daniel Loring (Appellant Pro Se) v. United States of America, United States
Department Of Justice, Executive Office for United States Attorney’s, General
Counsel (Appellees). UNITED STATES as a party.
Civil Case 20-2137: captioned: Daniel Loring v. United States of America, et. al.
JUDGMENT is Affirmed, March 10. 2021.
Civil Case 20-2137: captioned: Daniel Loring v. United States of America.
UNITED STATES Department Of Justice. Executive Office for United States
Attorney’s, General Counsel.
PETITION for Rehearing, Denied April 19, 2021.
Civil Case 20-2137; captioned: Daniel Loring v. United States of America, et. al.
3. In the Supreme Court of the United States
(F.T.C.A.) Civil Case

(filed August____, 2021)

Daniel Loring (Petitioner) v. United States of America, UNITED STATES
Department of Justice, Executive Office for United States Attorney’s General
Counsel (Respondents). UNITED STATES as a party.
Re-Captioned: “DANIEL LORING v. UNITED STATES”

6

i

TABLE OF CONTENTS
Question Presented

1, 2, 3, 4

<
i

Parties to the Proceedings

5

Related Proceedings Directly on Review

6

Table of Contents

7

Table of Authorities

8, 9, 10

Petition for Writ Of Certiorari

11

Opinions Below

1, 2, 3, 4

Jurisdiction

4

Statement of the Case

5-25
26

Reasons for Granting the Writ
Conclusion

26, 27, 28

Form SF-95 (Claim for Damages)

(2 pages)

Certificate of Compliance

29
30, 31

Certificate Proof of Service
Certificate Proof of Service to other Parties

32, 33, 34

Appendix to Petition for Extraordinary Writ of Certiorari

1- 36

(33) Contentions

Attached to Appendix

7
r

TABLE OF AUTHORITIES
CASES:
(McNeil v. United States, 508 U.S. 106 , 112 (1993)). Compliance with $ 2675(a)’s
presentment requirement is a jurisdictional precondition to filing an FTCA suit in
federal district court.”
(Bell Atlantic Corp. V. Twombly 550 U. S.

(2007) Supreme Court Of The United

States No. 05-1126 Bell Atlantic Corporation, EtAL, Petitioners V. William Twombly
EtAl. On Writ Of Certiorari To The United States Court Of Appeals For The Second
Circuit [May 21, 2007])
(Ashcroft V. Iqbal 556 U. S.____(2009) Supreme Court Of The United States No. 071015.) Applying Twombly/Iqbal Pleading Standards.
UNITED STATES CODIFIED STATUTES:
Section 1001 of the USA PATRIOT Act (Patriot Act). Public Law 107-56. direct the
Office of the Inspector General (OIG) of the U.S. Department of Justice
(DEPARTMENT OF JUSTICE or Department) to undertake a series of actions
related to claims of civil rights or civil liberties violations allegedly committed by
DEPARTMENT OF JUSTICE employees, including United States Attorneys.
TITLE 18. U.S.C., SECTION 242: Whoever, under color of any law, statute,
ordinance, regulation, or custom, willfully subjects any person in any State, Territory,
Commonwealth, Possession, or District to the deprivation of any rights, privileges, or
immunities secured or protected by the Constitution or laws of the United States,...
shall be fined under this title or imprisoned not more than one year, or both;
Under 42 U.S.C. § 1983. you may sue state or local officials for the “deprivation of any
rights, privileges, or immunities secured by the Constitution and [federal laws].”
Under Bivens v. Six Unknown Named Agents of Federal Bureau of Narcotics, 403 U.S.

8

388 (1971), you may sue federal officials for the violation of certain constitutional
rights.
Under 28 U.S.C. $ 2675(a) The United States Supreme Court has recognized that (the
most natural reading of ($ 2675(a)) indicates that congress intended to require
complete exhaustion of Executive remedies before invocation of the judicial process.”
Under 28 U.S.C. $ 2680 The Federal Tort Claims Act (FTCA) sets forth procedures
for presenting and resolving administrative monetary claims for personal injury,
property damage, or death arising from the alleged negligence of officers and
employees of the federal judiciary acting in the scope of their official duties.
Under 18 U.S.C. 1503 Obstruction Of Justice. 9-42.010 Civil Fraud Against the
Government Cases. 18 U.S.C. § 371—Conspiracy to Defraud the United States.
1-4.000 - Standards Of Conduct 5 C.F.R. § 2635
1725. Protection Of Government Processes - Obstruction Of Pending Proceeding 18 U.S.C. 1505 15 U.S.C.

1311-14. with the intent of

923. 18 U.S.C. § 371—Conspiracy to Defraud the United States
18 U.S.C. $ 241 (Conspiracy to Injure Citizens in the Exercise of Federal Rights);
18 U.S.C. § 242 (Willful Deprivations of Federal Rights Under Color of Law);
18 U.S.C. § 245 (Interference with Federally Protected Activities)
42 U.S.C. § 3631 (Interference with Fair Housing Activities)
910. Knowingly and Willfully
18 U.S.C. § 1001 (false statements),
18 U.S.C. § 287 (false claims),
18 U.S.C. § 371 (conspiracy to defraud the government)
1737. Civil Action To Enjoin The Obstruction Of Justice - 18 U.S.C. 1514
901. Scope of the General Statutes Prohibiting Fraud Against the Government: 908.
Elements of 18 U.S.C. § 1001
9

i

UNITED STATES FEDERAL CONSTITUTIONAL PROVISIONS:
UNITED STATES CONSTITUTION. AMENDMENT I: The First Amendment to the
United States Constitution prevents the government from making laws which
regulate an establishment of religion, or that would prohibit the free exercise of
religion, or abridge the freedom of speech, the freedom of the press, the freedom of
assembly, or the right to petition the government for redress of grievances. It was
adopted on December 15, 1791, as one of the ten amendments that constitute the Bill
of Rights.
UNITED STATES CONSTITUTION. AMENDMENT XIV: All persons born or
naturalized in the United States, and subject to the jurisdiction thereof, are citizens
of the United States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the
United States: nor deny to any person within its jurisdiction the equal protection of
the laws: nor shall any State deprive any person of life, liberty, or property, without
due process of law.
LANDMARK Case - is a court case that is studied because it has historical and legal
significance. The most significant cases are those that have had a lasting effect on
the application of a certain law, often concerning violations of individual rights and
liberties.
WHISTLEBLOWER: A whistleblower is a person, who exposes information or
activity within a private, public, or government organization that is deemed illegal,
illicit, unsafe, or a waste, fraud, or abuse of taxpayer funds.

i

10

PETITION FOR WRIT OF CERTIORARI
Where in this Legal Malpractice Action and Civil Lawsuit UNITED STATES
is the Defendant in the Case. Whereby an Act of Congress: Under (F.T.C.A.) 28 U.S.C.
$ 2675(a) The United States Supreme Court has recognized that (the most natural
reading of ($ 2675(a)) indicates that congress intended to require complete exhaustion
of Executive remedies before invocation of the judicial process.” And the UNITED
STATES did not dispute that a legal malpractice action is properly brought under
FTCA. And the UNITED STATES did not dispute that it had a duty to provide Loring
with adequate legal representation in the Fair Housing Act Case. Wherefore, the
United States District Court In Ref. (Doc. rl09) MEMORANDUM OPINION AND
ORDER: denying95 MOTION for JUDGMENT as a Matter of Law, with prejudice
granting97 MOTION for Summary Judgment in favor of the United States of
America.
I, Petitioner Daniel Loring, a Disabled United States Citizen, Jurisdiction of
South Dakota; Respectfully and Honorably Petition In the Supreme Court of the
United States for Extraordinary Writ of Certiorari, to review the Administrative
Agencies Opinions, Decisions, Actions, MEMORANDUM(s), Referrals and Complaint
Forms; to review the entire United States District Court CIVIL DOCKET RECORD
FOR CASE #: 4:18-cv-04034-LLP; to review the 8th Circuit United States Court of
Appeals (6) CLERK ORDER(s), the 8* Circuits UNPUBLISHED PER CURIAM
Opinion; the 8th Circuits JUDGMENT is Affirmed; to review the 8th Circuits
“wrongful” entry on April 5. 2021. in the Civil Docket Record for Case 20-2137; and
review the (2) Judge ORDER(s) and MANDATE.
Wherefore, accordingly to Rules of the Supreme Court Rule 20 and Rule 14; I
Respectfully and Honorably Petition In the Supreme Court of the United States for
Extraordinary Writ of Certiorari to review all (33) “contentions” attached at Appendix
to the Petition that are of extraordinary circumstances, and is all Iron Clad Factual
Documentary Evidence in support of this Petition.

11

OPINIONS BELOW
The opinions and actions of the United States Department of Justice, Office of
the Inspector General, Civil Rights and Civil Liberties Complaints Investigations
Division. Washington, D.C.. in correspondences, Memorandums dated July 10. 2017
and dated August 2, 2017. complaint referrals, and the O.I.G. Complaint Form OIG
No.: DN-420-2017-009604. These are subpoenaed documents regarding my 1st
Administrative Claim and are reported in 18-4034; (1) Complaint - (Doc. r95) Motion
for Judgment as a Matter of Law and in 20-2137 Motion for Substantive Relief and
is attached at Appendix - A to the Petition.
The opinion and response of the United States Department Of Justice.
Executive Office of United States Attorney’s. General Counsel in a correspondence
dated October 5. 2017. that included a pamphlet. These documents are reported in
18-4034 (Doc. rl) Exhibit 7 and is reported in 20-2137 Motion for Substantive Relief
and is attached at Appendix - B to the Petition.
The opinions and actions of the United States Department of Justice. Office of
the Inspector General. Civil Rights and Civil Liberties Complaints Investigations
Division. Washington. D.C.. Memorandum dated February 1. 2018 complaint
referrals, and the O.I.G. Complaint Form QIG No.: DN-420-2017-009604: with a
correspondence dated March 1. 2018. 2017. These are subpoenaed documents
regarding my 2nd Amended Administrative Claim and are reported in 18:4034; (1)
Complaint - (Doc. r95) Motion for Judgment as a Matter of Law and in 20-2137 Motion
for Substantive Relief and is attached at Appendix — C to the Petition.
In the United States District Court. Jurisdiction of South Dakota
In (F.T.C.A.) Civil Suit 18-4034. The United States District Court (Doc. 38)
MEMORANDUM OPINION AND ORDER: Judge Lawrence L. Piersol filed
December 18. 2018: This document is reported in (Doc. rll9) NOTICE of Appeal and
was not included in the (41 Page) Paper ‘Transmittal” of the CIVIL DOCKET
RECORD FOR CASE #: 4:18-cv-04034-LLP; to the 8th Circuit Court of Appeals, but
1
i

is reported in 20-2137 Motion for Substantive Relief and is attached at Appendix — N
to the Petition.
In (F.T.C.A.) Civil Suit 18-4034. The United States District Court (Doc. r69)
ORDER ON MOTIONS: Judge Lawrence L. Piersol filed June 10. 2019: This
document is reported in (Doc. rll9) NOTICE of Appeal and was not included in the
(41 Page) Paper “Transmittal” of the CIVIL DOCKET RECORD FOR CASE #: 4:18cv-04034-LLP; to the 8th Circuit Court of Appeals, but is reported in 20-2137 Motion
for Substantive Relief and is attached at Appendix - P to the Petition.
In (F.T.C-AJ Civil Suit 18-4034. The United States District Court (Doc. r!09)
MEMORANDUM OPINION AND ORDER: Judge Lawrence L. Piersol filed March
17. 2020: This document is reported in (Doc. rll9) NOTICE of Appeal and is attached
at Appendix — Q 1 to the Petition. The United States District Court (Doc. rllO)
JUDGMENT: Summary Judgment in favor of the United States of America. Judge
Lawrence L. Piersol filed March 17. 2020. This document is reported in (Doc. rll9)
NOTICE of Appeal and is attached at Appendix - Q 2 to the Petition.
In (F.T.C.A.) Civil Suit 18-4034. The United States District Court (Doc. r!17)
MEMORANDUM

OPINION

AND

ORDER

DENYING

MOTION

FOR

RECONSIDERATION: Judge Lawrence L. Piersol filed April 14. 2020. This
document is reported in (Doc. rll9) NOTICE of Appeal and is attached at Appendix
- R to the Petition.
In (F.T.C.A.) Civil Suit 18-4034. The United States District Court (Doc. r!24) ;
MEMORANDUM OPINION AND ORDER DENYING MOTION FOR STAY. Judge
Lawrence L. Piersol ; filed July 20. 2020. This document is reported in 20-2137
Originating court document filed consisting of ORDER dated 07/20/2020 denying
motion for stay, and is attached at Appendix — S to the Petition.
In the Eighth Circuit United States Court of Appeals

2

In (F.T.C.A.) Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: CLERK ORDER dated August 11. 2020. This document is reported in 202137 and is attached at Appendix - X to the Petition.
In (F.T.C-A.) Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: CLERK ORDER dated August 19. 2020. These documents are reported in
20-2137 and is attached at Appendix - Y to the Petition.
In (F.T.C.A.) Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: CLERK ORDER dated September 9. 2020. This document is reported in 202137 and is attached at Appendix - Z to the Petition.
In (F.T.C.A.l Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: CLERK ORDER dated September 17. 2020: and CLERK ORDER dated
September 17. 2020. These documents are reported in 20-2137 and is attached at
Appendix - AA 1 and Appendix - AA 2 to the Petition.
In (F.T.C.AO Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: Counsel Opinion Letter dated March 10, 2021; UNPUBLISHED PER
CURIAM Opinion dated March 10. 2021: The Eighth Circuit United States Court of
Appeals: JUDGMENT dated March 10. 2021. These documents are reported in 202137 and is attached at Appendix - BB 1. Appendix - BB 2 and Appendix - BB 3 to
the Petition. (The 8th Circuits UNPUBLISHED PER CURIAM Opinion and
JUDGMENT is reported in 18-4034, on March 10. 2021 as being filed by Daniel
Loring. (I DID NOT file these DOCUMENTS with the District Court in 18-4034, for
the simple fact is they were posted the same day in both 20-2137 and 18-4034?)
In (F.T.C.A.) Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: PRO SE Notice of Docket Activity dated April 5. 2021: MOTION to
Amend/Correct

Petition

for

Rehearing that

was

“wrongfully”

entered

as

MEMORANDUM of Appellant in support of petition for en banc rehearing, petition
for rehearing by panel. This document is reported in 20-2137 and is attached at
Appendix — DD 1 to the Petition.

3

In (F.T.C.A.) Civil Suit 20-2137; The Eighth Circuit United States Court of
Appeals: JUDGE ORDER dated April 19, 2021. This document is reported in 20-2137
and is attached at Appendix - EE to the Petition.
In (F.T.C-AJ Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: JUDGE ORDER dated April 28. 2021. These documents are reported in 202137 and is attached at Appendix - FF 2 to the Petition.
In (F.T.C.A.) Civil Suit 20-2137: The Eighth Circuit United States Court of
Appeals: MANDATE dated April 28. 2021. This document is reported in 20-2137 and
is attached at Appendix - GG to the Petition. (The 8th Circuits MANDATE is reported
in 18-4034, on April 28. 2021 as being filed by Daniel Loring. (I DID NOT file this
DOCUMENT with the District Court in 18-4034, for the simple fact is was posted the
same day in 18-4034 as it was posted in 20-2137?)
JURISDICTION
Article III of U.S. Constitution, 28 U. S. C. § 1254, §1651, Sup. Ct. Rule 20. The
Supreme Court of the United States has been given both Original Jurisdiction and
Appellate Jurisdiction to hear cases. Wherefore, the Supreme Court of the United
States only hears cases that could have national significance, cases that might
harmonize conflicting decisions in the Federal Circuit Courts and cases that could
have precedential value. The exceptional circumstances of the (USA) United States
Attorney(s) Office Assistant United States Attorney’s wrongdoing and professional
misconduct regarding this Legal Malpractice Action Civil Lawsuit conjoined with the
extraordinary circumstances in this case to cover-up and conceal the Merits of this
Legal Malpractice Action; were destined for the Jurisdiction of the Supreme Court of
the United States; as I “claim” it is a Legal Malpractice LANDMARK Decision Case.
STATEMENT OF THE CASE
I, Petitioner Daniel Loring, claim that for the 1st time in the History of the
United States a Legal Malpractice Action Civil Lawsuit with having such
extraordinary circumstance is properly brought under the (F.T.C.A.) U.S.C. $ 2675(a)
4

In the Supreme Court of the United States. Whereby an Act of Congress, on or before
June 8, 2018; the UNITED STATES did not dispute that that a legal malpractice
action is properly brought under the FTCA and the UNITED STATES did not dispute
that it had a duty to provide Petitioner with adequate legal representation in the Fair
Housing Act case. Wherefore on April 3. 2018: I filed this Legal Malpractice Action
against the UNITED STATES Department of Justice, Executive Office for United
States Attorney’s General Counsel. Thereafter, on December 18. 2018. the United
States District Court In Ref\ (Doc. r38) Memorandum Opinion and ORDER:
dismissed the UNITED STATES Department of Justice, Executive Office for United
States Attorney’s General Counsel as defendants in the Case. And on March 17. 2020.
the United States District Court In Ref. (Doc. rl09) Memorandum Opinion and
ORDER: denying95 MOTION for JUDGMENT AS A MATTER OF LAW. granting97
with prejudice SUMMARY JUDGMENT in favor of the UNITED STATES OF
AMERICA. I “claim” is Deceitful Misrepresentation. Fraud and Obstruction of
Justice. Therefore, I claim I have “exhausted all Administrative and Executive
remedies” in this Administrative Proceeding to Petition for Extraordinary Writ of
Certiorari In the Supreme Court of the United States for redress of my grievances.
As the Supreme Court of the United States to have a better and more proper
understanding of this proceeding. I claim I have been caused to suffer damages from
being Deprived of my Civil Rights and Civil Liberties and from being Deprived of my
Rights to Equal Protection of the Laws. Wherefore, I further claim that I have been
caused to suffer the most inconceivable damages from the intentional and malicious
harassment and the “callousness” Depravation of my Right to Due Process of Law;
Depravation of my Rights to Citizenship and Depravation of my Right to Life, Liberty,
and to the pursuit of Happiness by the (USA) United States Attorney’s Office and the
United States District Courts wrongdoing and misconduct in both the underlying
Federal Fair Housing Act Civil Rights Disability Discrimination Case/Lawsuit and
this Administrative Proceeding and valid Legal Malpractice Action Civil Lawsuit, for
6 years on August 28. 2021.

5

f

Attached at the Appendix are (33) “contentions” all of Material Facts with
having the pertinent information including handwritten notes on these contentions
highlighted in yellow and is attached at Appendix —

to the Petition, and referenced

in this statement of the case (e.g., Id. at App. - _ ); and is Iron Clad Factual
Documentary Evidence in support of this Petition for Extraordinary Writ of
Certiorari In the Supreme Court of the United States. On February 12. 2014. I was
Discriminated against with having a Disability by my landlord and that was when I
was first caused to suffer damages from having my Civil Rights violated under the
Fair Housing Act.
On July 22. 2015. The United States Department of Housing and Urban
Development, Office of Counsel, filed a Federal Fair Housing Civil Rights Disability
Discrimination Case/Lawsuit on Petitioner Daniel Loring’s behalf in Federal
Administrative Law Court charging the Defendant’s in the FHA Civil Suit with 10
Violations of the Fair Housing Act and asking the court to access a $320,000.00 Civil
penalty to the Defendant’s in the FHA Case. The Federal FHA Civil Case/Lawsuit
was then referred to the U.S. Department of Justice, United States Attorney’s Office,
Jurisdiction of South Dakota for the litigation of the Petitioner’s Federal FHA
Case/Lawsuit, where:
On August 28, 2015: The US DOJ, USAO, Civil Chief Diana Ryan and AUSA
Alison Ramsdell filed their “draft” of the United States Department of Housing and
Urban Development’s Complaint in the United States District Court, Jurisdiction of
South Dakota. After close to 2 years of having to take their abuse and negligence to
accurately represent me in my FHA Case.
On June 26. 2017: I filed my 1st Administrative Claim/Complaint with the
United States Department of Justice, Office of the Inspector General, Civil Rights
and Civil Liberties Complaints Investigations Division, Washington, D.C. with
allegations of Obstruction of Justice, Legal Malpractice and Civil Rights Abuse by
U.S. Department Of Justice, United States Attorney’s Office, Civil Chief Diana Ryan
and AUSA Alison Ramsdell. (e.g., Id. at App. - A) includes copies of 5 Subpoenaed
6

Documents of factual iron clad documentary evidence from the Office of the Inspector
General, Investigations Division, Washington, D.C. dated July 10, 2017. and dated
August 2, 2017, and is reported in both 18-4034 (Doc. r95) MOTION for Judgment as
a Matter of Law and in 20-2137, Motion for Substantive Relief. On October 5, 2017.
(e.g., Id. at App. -B) is a copy of the correspondence and pamphlet I received from
the Executive Office for United States Attorney’s in response to my letter dated
September 9. 2017. to the Executive Office for United States Attorney’s General
Counsel. Where the General Counsel forwarded it to the Executive Office for United
States Attorney’s for response. This correspondence “exhausted all my administrative
remedies” and is reported in both 18-4034 (Doc. r95) MOTION for Judgment as a
Matter of Law and in 20-2137, Motion for Substantive Relief. On or about December
8. 2017: I filed my 2nd Amended Administrative Claim/Complaint with the Office of
the Inspector General, Civil Rights and Civil Liberties Complaints Investigations
Division, Washington, D.C. with allegations of Conspiracy to Defraud the United
States, Conspiracy Obstruction of Justice, Federal HIPAA Law Violations,
Fraud/Accessory to Fraud and “collusion” between the U.S. Department of Justice,
United States Attorney’s Office, Civil Chief Diana Ryan, Assistant U.S. Attorney
Alison Ramsdell and Defendants Attorney David Palmer. Thereafter, (e.g., Id. at
App. - C) are 4 Subpoenaed Documents of factual iron clad documentary evidence
from the Office of the Inspector General, Investigations Division, Washington, D.C.
regarding my 2nd Amended Administrative Claim. (The pertinent information
including handwritten notes on these contentions are highlighted in yellow
and is attached at Appendix - A Appendix - B. Appendix - C to the Petition.)
(PETITIONERS STATEMENT OF FACT OF THE CASE)
On www.pacermonitor.com. the PUBLIC DOMAIN of the United States Courts
Official government website, the United States District Courts Public Record and
Civil Docket for Case 4:18-cv-04034-LLP, Loring v United States of America, et. al.,
(e.g., Id. at App. - E) and the United States Court of Appeals for the Eighth Circuit
Civil Docket for Case 20-2137-LLP, Daniel Loring v United States of America, et. al.,
7

I

i

(e.g., Id. at App. - T) conjoined contain approximately 160 Civil Docket Record
Entries and approximately 4800 pages of documents and pleadings in this
Administrative Proceeding that is a “non-judicial” determination of fault or
wrongdoing, that concludes to Summary Judgment in favor of the United States of
America. Wherefore, I “claim” that fact alone speaks for itself and makes a Statement
of the Case.
Where I further claim on www.pacermonitor.com. the PUBLIC DOMAIN of the
United States Courts Official government website, the United States District Courts
Public Record and Civil Docket for Case 4:18-cv-04034-LLP, Loring v United States
of America, et. al., (e.g., Id. at App.-E) there are Records that have been REMOVED
and DELETED from the Public Domain of the United States District Courts Public
Record and Civil Docket for Case 4:18-cv-04034-LLP, I also claim there have been
Civil Docket Records that have been re-edited and/or modified months after the
docket was entered and submitted in PACER. And I further “claim” that every
document filed by the (USA) United States Attorney “Office” making “false claims”
and “false statements” claiming to be Defendant, United States of America; and/or
claiming to be Defendants, United States of America, United States Department of
Justice, Executive Office for United States Attorney’s, General Counsel; starting with
In Ref. (Doc. r21) (e.g., Id. at App. - LI) filed on May 21. 2018: and every document
after that filed by the (USA) United States Attorney “Office” and the United States
District Court in the Public Record of the Civil Docket for Case 4:18-cv-04034-LLP, is
a Deceitful, Misrepresentation of the Case and is Conspiracy Fraud/Accessory to
Fraud and Conspiracy Obstruction of Justice to Defraud the Government, to Defraud
the United States, to Defraud the Public and Defraud the Citizens of South Dakota.
The record on www.pacermonitor.com. goes as follows:
On April 3. 2018: After “exhausting all administrative remedies.” I filed this
valid (F.T.C.A.) Legal Malpractice Claim and Civil Lawsuit Civil Case 18-4034;
Daniel Loring Plaintiff v. United States of America, United States Department of
Justice, Executive Office for United States Attorney’s, General Counsel, Defendants
8

in United States District Court, Jurisdiction of South Dakota, (e,g,, Id, at App, - D)
(Doc. rl) COMPLAINT; This Civil Action was brought forward pursuant to 4-5.000
Tort Litigation of my Administrative Claims filed with the U.S. Department of
Justice, Office of the Inspector General, and with the Office of the Deputy Attorney
General. Pursuant to 1-4-100 - 18 U.S.C. 1503 Obstruction Of Justice, 9-42.010 Civil
Fraud Against the Government Cases 18 U.S.C. S 371—Conspiracy to Defraud the
United States, by the U.S. Attorney’s Office Assistant U.S. Attorney’s exercising their
authority during litigation in my Federal Fair Housing Civil Rights Disability
Discrimination Case/Lawsuit, acting on behalf of the United States of America. (Doc.
r4) SUMMONS: Summons Issued as to Executive Office for United States Attorney's
General Counsel, United States Department of Justice. 3 original summonses. (The
pertinent information including handwritten notes on these contentions are
highlighted in yellow and is attached at Appendix - D to the Petition,)

(PETITIONERS STATEMENT OF FACTS OF THE CASE!
Important Fact to Remember in Appendix - D. the printout of the United
States District Courts website PDF fillable download Complaint form: COMPLAINT
1. State the grounds for filing this case in Federal Court (include federal statutes
and/or U.S. Constitutional provisions if vou know them. Fed. R. Civ. P. 8(a)(1)
requires a short and plain statement of the grounds for that the Court’s jurisdiction.)
Attached (e,g,9 Id, at App, -E) is a copy of the Official governments website,
www.pacermonitor.com. United States South Dakota District Courts, DOCKET
RECORD FOR CASE #: 4:18-cv-04034-LLP; (F.T.C.A.) Legal Malpractice Civil Case
18-4034, Loring v. United States of America et. al. (The pertinent information
including handwritten notes on these contentions are highlighted in yellow
and is attached at Appendix - E to the Petition.)
On April 9.2018: In Ref, (Doc. r6) NOTICE of Appearance bv Delia M. Drulev
(USA) on behalf of United States of America. (Druley (USA), Delia) In Ref. (Doc. r7)
ACKNOWLEDGEMENT OF SERVICE Executed as to4 Summons Issued as to

9

USA,1 Complaint

5 jj 7)?

Acknowledgement filed by United States of America. (Drulev

(USA), Delia)
(PETITIONERS STATEMENT OF FACTS OF THE CASE)
On April 10, 2018: I received (e.g., Id. at App. - F), Exhibit - 17B; NOTICE
of Appearance by Delia M. Druley (USA) “United States Attorney” on behalf of United
States of America, and I received (e.g., Id, at App, - F), Exhibit - 17; a letter from
the United States Attorney’s Office, Civil Chief Diana Ryan whom I claim already
developed a plan to intervene and obstruct justice in this Administrative Proceeding
whereas in the letter the case is captioned; RE: Daniel Loring v. United States of
America, et. al., The first sentence reads: Our office is in receipt of your Summons and
Complaint in the above referenced matter, and the last sentence in the letter reads:
We ask that all future correspondences with our office be sent to the U.S. Attorney’s
Office at this address, (e.g., Id. at App. - F), Exhibit - 17A; In Ref. (Doc. r7)
ADMISSION of Service: “service of the summons and complaint upon the United
States Attorney (USA) for the District of South Dakota

defendants response is

due within 60 davs.
In Support of the Question(s) Presented and to Support my “claims” of the
United States District Court and/or the (USA) United States Attorney “Office”
knowingly, willfully and recklessly acted in bad faith and violated 1725. Protection
Of Government Processes — Obstruction Of Pending Proceeding — 18 U.S.C, 1505
Section 1505 with the intent to mislead the Public and deceitfully cover-up the
wrongdoing to conceal the Merits of the Case. The deceit, the misrepresentation, the
Fraud and the Obstruction of Justice can clearly be seen in the CIVIL DOCKET FOR
CASE #: 4:18-cv-04034-LLP; on the “OFFICIAL” Publics Domain of the governments;
United States Courts Cases; www.pacermonitor.com, on May 14, 2018.
On May 14, 2018; In Ref. (Doc. rl3) MOTION to Amend/Correctl Complaint
by Daniel Loring. Att. 1 Exhibit 17 4/9/18 letter. Att.2 Exhibit 17A admission of
service. Att.3 Exhibit 17B notice of appearance. Att. 4 Certificate of Service Att. 5
Envelope marked 5/12/18.
10

The Document I filed on May 14. 2018. (e.g., Id. at App. - F), In Ref. (Doc.
rl3) NOTICE OF MOTION AND MOTION TO AMEND COMPLAINT WITH
ADMISSION OF NEW DOCUMENTARY EVIDENCE AS EXHIBIT 17: EXHIBIT
17A: EXHIBIT 17B. (The pertinent information including handwritten notes
on these contentions are highlighted in yellow and is attached at Appendix F_ to the Petition.)
On May 14. 2018: In Ref, (Doc. rl4) MOTION for Summary Judgment by
Daniel Loring. (SLW)
The Document I filed on May 14, 2018, (e.g., Id. at App. - G), In Ref. (Doc.
r!4) NOTICE OF MOTION AND MOTION FOR SUMMARY JUDGMENT
PURSUANT TO FED. R. CIV. P. 56. (The pertinent information including
handwritten notes on these contentions are highlighted in yellow and is
attached at Appendix - G to the Petition.)
On May 14, 2018, (e.g., Id. at App. - H), AFFIDAVIT OF DANIEL LORING
In Ref. (Doc. rl5), (Doc. rl6), (Doc. rl7), (Doc. rl8) whereas the United States
District Court “wrongfully” entered AFFIDAVIT of Daniel Loring into 4
AFFIDAVIT(s) of Daniel Loring. (The pertinent information including
handwritten notes on these contentions are highlighted in yellow and is

i

attached at Appendix - H to the Petition.)
Attached (e.g., Id. at App. -11), is a copy the Publics Domain and the Public
Records of United States Court Cases governments website, www.pacermonitor.com.
on the Publics Domain of the United States District Court CIVIL DOCKET FOR
CASE #: 4:18-Cv-04034-LLP; Loring v. United States of America: (The pertinent
information

including handwritten notes on

these contentions are

highlighted in yellow and is attached at Appendix -II to the Petition.)
(PETITIONERS STATEMENT OF FACT OF THE CASE)
Wherefore, it is “clear” to see the last Civil Docket Record entered for Monday.
May 14. 2021: In Ref, is (Doc. r!8) AFFIDAVIT of Daniel Loring.... And it is “clear”
11

[

to see the next Civil Docket Record entered is Monday, Mav 21, 2018. In Ref, is (Doc.
r21) RESPONSE to Motion re!2 MOTION to Amend/Correctl Complaint filed by
United States of America. (Drulev (USA) Delia.) On www.nacermonitor.com. the
Publics Domain of the governments United States Court Cases, (Doc. r!9)
CERTIFICATE OF SERVICE(s) and (Doc. r20) CERTIFICATE OF SERVICE(s)
have been “REMOVED and DELETED” from the Public Record of the CIVIL
DOCKET FOR CASE #: 4:18-cv-04034-LLP; for a reason.
Attached (e.g., Id. at App. - I 2), filed 6/8/2020, and reported in Appellate
Case 20-2137. is a copy of the “transmittal” of the United States District Court, CIVIL
DOCKET FOR CASE #: 4:18-cv-04034-LLP; (e.g.9 Id.. at App. - V 2), vase 3,
highlighted in yellow civil docket records entered for 05/14/2018: In Ref, is (Doc.
rl9) CERTIFICATE OF SERVICE by Daniel Loring. In Ref, is (Doc. r20)
CERTIFICATE OF SERVICE by Daniel Loring. (Entered: 05/14/2018). (The
pertinent information including handwritten notes on these contentions are
highlighted in yellow and is attached at Appendix -12 to the Petition.)
(PETITIONERS STATEMENT OF FACT OF THE CASE!
Wherefore, it is “clear” to see on the copy of the “transmittal” of the Official
United States Courts CIVIL DOCKET FOR CASE #: 4:18-cv-04034-LLP; (Doc. r!9I
CERTIFICATE OF SERVICE(s) and (Doc. r20) CERTIFICATE OF SERVICED
have NOT been “REMOVED and DELETED” and are showing as part of the record
on this copy of the Official United States Courts Civil Docket Record for Case 184034. And where on www.pacermonitor.com (Doc. r!9) CERTIFICATE OF
SERVICE(s) and (Doc. r20) CERTIFICATE OF SERVICE(s) have been “REMOVED
and DELETED” from the Publics Domain CIVIL DOCKET FOR CASE #: 4:18-cv04034-LLP. I “claim” that is a violation of 1725. Protection Of Government Processes
- Obstruction Of Pending Proceeding - 18 U.S.C. 1505 Section 1505.
On Mav 14, 2018: Attached (e.g., Id. at App. - J) are copies of In Ref. (Doc.
r!9) CERTIFICATE OF SERVICE(s) re; (Doc. rl3), (Doc. rl4), (Doc. rl5), (Doc.
rl6), (Doc. rl7), (Doc. rl8) to the Executive Office for United States Attorneys’
12

General Counsel, United States Department of Justice dated May 4. 2018, and the
USPS Proof of Service filed by Daniel Loring on May 14. 2018, That were deceitfully
and fraudulently “REMOVED and DELETED” sometime later from the CIVIL
DOCKET FOR CASE #: 4:18-cv-04034-LLP; on www.pacermonitor.com for a reason.
(The pertinent

information

including

handwritten

notes

on

these

contentions are highlighted in yellow and is attached at Appendix - J to the
Petition.)
On Mav 14, 2018: Attached (e.g., Id. at App. - K) are copies of In Ref. (Doc.
r20l CERTIFICATE OF SERVICE(s) re; (Doc. rll), (Doc. rl2), (Doc. rl3), (Doc.
rl4), (Doc. rl5), (Doc. rl6), (Doc. rl7), (Doc. rl8) to Office of the Attorney General,
United States Department of Justice dated Mav 4. 2018. and a copy of the USPS Proof
of Service filed by Daniel Loring on Mav 14. 2018. That were deceitfully and
fraudulently “REMOVED and DELETED” sometime later from the CIVIL
DOCKET FOR CASE #: 4:18-cv-04034-LLP; on www.pacermonitor.com for a reason.
(The pertinent

information

including

handwritten

notes

on

these

contentions are highlighted in yellow and is attached at Appendix - K to the

Petition.)
On Mav 21. 2018. (e.g., Id. at App. - L 1), is a copy of In Ref. (Doc. r21)
RESPONSE to Motion re!2 MOTION to Amend/Correctl Complaint.... filed by
United States of America. (Drulev (USA) Delia). (The pertinent information
including handwritten notes on these contentions are highlighted in yellow
and is attached at Appendix -LI to the Petition.)
On Mav 21, 2018, United States District Court Judge Lawrence L. Piersol
filed

In

Ref.

(Doc.

r22)

ORDER:

denving!2 Motion

to

AmencFCorrect;

denvingl3 Motion to Amend/Correct.
On June 4. 2018. (e.g., Id. at App. - L 2), is a copy of In Ref. (Doc. r23)
MOTION to Dismiss for Failure to State a Claim , MOTION to Dismiss for Lack of
Jurisdiction , MOTION to DISMISS by Executive Office for United States Attorney's
General Counsel, U.S. Department of Justice, United States of America. (Drulev
13

(XJSA), Delia) (The pertinent information including handwritten notes on
these contentions are highlighted in yellow and is attached at Appendix - L
2 to the Petition.)

(PETITIONERS STATEMENT OF FACT OF THE CASE)
I “claim” (Doc. r21) and (Doc. r23) are unsanctioned documents and these
Material Facts coupled with the REMOVAL and DELETION of (Doc. rl9) and (Doc.
r20) CERTIFICATE(s) OF SERVICE on the Publics Domain and the Public Record of
United States Court Cases governments website, www.nacermonitor.com, CIVIL
DOCKET FOR CASE #: 4:18-cv-04034-LLP; Loring v. United States of America: is
Factual Documentary Evidence that supports the United States District Court and
the (USA) United States Attorney “Office” have knowingly, willfully and recklessly
violated 1-4.000

Standards Of Conduct.

Conflicts of Interest. (5 C.F.R.

$ 2635.802(b)): (5 C.F.R. S 2635.502): (5 C.F.R. § 2635.702(b)): and 1725. Protection Of
Government Processes - Obstruction Of Pending Proceeding - 18 U.S.C. 1505
Section 1505 specifically prohibits anyone from withholding, misrepresenting,
removing from any place, concealing, covering up, destroying, mutilating, altering, or
bv other means falsifying any documentary material, answers to written
interrogatories, or oral testimony that is the subject of a proper investigative demand
under the Antitrust Civil Process Act, 15 U.S.C. $$ 1311-14, with the intent to
mislead the Public and deceitfully cover-up the wrongdoing to conceal the Merits of
the Case.
On June 18. 2018: I filed in 18-4034; (e.g., Id. at App. - M), In Ref. (Doc.
r32) AFFIDAVIT of Daniel Loring. attached (e.g., Id. at App. - F) EXHIBIT 17;
EXHIBIT 17A; EXHIBIT 17B to my AFFIDAVIT. (The pertinent information
including handwritten notes on these contentions are highlighted in yellow
and is attached at Appendix - M to the Petition.) ((6) MONTHS LATER)
On December 18. 2018: (e.g., Id. at App. - N) United States District Court,
Judge Lawrence L. Piersol filed In Ref. (Doc. r38) MEMORANDUM OPINION
AND ORDER: (The pertinent information including handwritten notes on
14

these contentions are highlighted in yellow and is attached at Appendix - N
to the Petition.)
(PETITIONERS STATEMENT OF FACT OF THE CASE)
Case 4:18-cv-04034-LLP; is captioned: DANIEL LORING, Plaintiff v. UNITED
STATES OF AMERICA, U.S. DEPARTMENT OF JUSTICE, EXECUTIVE OFFICE
FOR UNITED STATES ATTORNEYS GENERAL COUNSEL Defendants.
paee 1 1st paragraph: Plaintiff Daniel Loring ("Loring") brought this pro se lawsuit
against the UNITED STATES for the alleged misconduct of two Assistant United
States Attorneys in their handling of an earlier civil lawsuit filed under the Fair
Housing Act on Loring’s behalf.
Accordingly: vs. 2-3: footnotes: 1) 28 U.S.C. $ 2675(a)

and Ps. 7 footnotes:

2) The UNITED STATES DOES NOT DISPUTE that a legal malpractice action is
nronerlv brought under the (F.T.C.A.). 3) The UNITED STATES DOES NOT
DISPUTE that it had a duty to provide Loring with adequate legal representation in
the Fair Housing Act Case.
Id. bottom pg. 9. quoting. While Loring has pled enough facts to state a
legal malpractice claim that is plausible on its face and gives the United
States fair notice of the claim....
Thereafter, Judge Lawrence L. Piersol ORDERED: The “UNITED STATES”
Department of Justice. Executive Office for United States Attorney's. General
Counsel are dismissed as defendants in the case. And re-captioned Case 4:18-cv04034-LLP; Daniel Loring Plaintiff v. United States of America et. al.
(PETITIONERS STATEMENT OF FACT OF THE CASE)
Where (e.g., Id. at App. - F), Exhibit -17; Letter dated April 9. 2018: Civil
Chief Diana Ryan had already developed a plan to intervene in this Administrative
Proceeding whereas she captioned the case; RE: Daniel Loring v. United States of
America, et. al. Wherefore on December 18. 2018: (e.g., Id. at App. - N) United
States District Court, Judge Lawrence L. Piersol filed In Ref. (Doc. r38):
MEMORANDUM OPINION AND ORDER: deceitfully and fraudulently dismissed
15

the UNITED STATES as Defendant in the case and re-captioned the case: Daniel
Loring Plaintiff v. United States of America et. al. The very next dav on
www.pacermonitor.com.
On December 19, 2018. In Ref. (Doc. r39) ANSWER to 1 Complaint..... to
Allegations Remaining After Court’s Partial Grant of Motion to Dismiss bv All
Defendants. (Drulev (USA), Delia).
What was filed on December 19. 2018: Attached at Appendix (e.g., Id. at
App. - O), In Ref. (Doc. r39) ANSWER TO ALLEGATIONS REMAINING AFTER
COURTS PARTIAL GRANT OF MOTION TO DISMISS (Docket 38) (The pertinent
information

including handwritten notes on these contentions are

highlighted in yellow and is attached at Appendix - O to the Petition.)
(PETITIONERS STATEMENT OF FACT OF THE CASE)
Where on April 9. 2018. (e.g., Id. at App. - F), Exhibit - 17A; In Ref. (Doc.
r7) ADMISSION of Service: “service of the summons and complaint upon the United
States Attorney (USA) for the District of South Dakota

defendants response is

due within 60 days. Now 8 Months later the (USA) United States Attorney
“Office” enters In Ref. (Doc. r39) ANSWER to 1 Complaint

yyyyyy

bv All

Defendants. (Drulev (USA). Delia) on www.pacermonitor.com. where the Factual
Document entered states: Defendant. United States of America.
I “claim” that is Knowingly. Willfully and Recklessly Deceitful
Misrepresentation and is 100% Fraud to Obstruction of Justice.
(PETITIONERS ADDITIONAL STATEMENT OF FACT OF THE CASE)
Where the United States District Court In Ref. (Doc. r38) ORDER: 6. That
Defendants' Motion to Dismiss. Doc. 23, is granted as to all of Plaintiffs claims with
the exception of his legal malpractice claim. In (Doc. r38) the United States District
Court dismissed my claims of Civil Chief Diana Ryan and AUSA Alison Ramsdell
violating (15) United States Codified Federal Statutes listed in (Doc. rl4) NOTICE of
MOTION and Motion for Summary Judgment, oases 20, 21 starting at 1725.
16

Protection Of Government Processes — Obstruction Of Pending Proceeding
— 18 U.S.C. 1505. And on vases 23, 24 starting at 1-4.000 Standards Of Conduct
and did not dismiss my Legal Malpractice Claim. Wherefore, In Ref. (Doc. r38)
ORDER: 6. That Defendants* Motion to Dismiss. Doc. 23, is granted as to all of
Plaintiffs claims with the exception of his legal malpractice claim. And where in (Doc.
r39) (Druley (USA) Delia) denies....all of Loring’s claims other than his legal
malpractice claim.
I ask this Extraordinary Question: Is Legal Malpractice against the Law?
Legal Malpractice. Not every mistake made by an attorney is considered legal
malpractice. InsteadA legal malpractice happens when an attorney handles a
case inappropriately due to negligence or with intent to harm and causes
damages to a client. Because legal malpractice is a claim of professional negligence,
the client can sue the attorney for damages. Wherefore, under the Federal Tort Claim
Act I filed this Legal Malpractice Action Civil Lawsuit against the UNITED STATES
and instead of granting me Final Judgment on the Merits of the Case. I “claim”
United States District Court Judge Lawrence L. Piersol knowingly and willfully
violated CODE OF CONDUCT Canon 1: A Judge Should Uphold the Integrity and
Independence of the Judiciary. Violated Canon 2: A Judge Should Avoid Impropriety
and the Appearance of Impropriety in all Activities. Canon 2A. Canon 2B. And
Violated Canon 3: A Judge Should Perform the Duties of the Office Fairly. Impartially
and Diligently. Canon 3A(3), Canon 3A(4), Canon 3A(5). Canon 3A(6). Canon 3B(4)
and Canon 3B(6). And recklessly violated 1725. Protection Of Government Processes
- Obstruction Of Pending Proceeding -- 18 U.S.C. 1505 as well as violating my
Constitutional Rights guaranteed to me by UNITED STATES CONSTITUTION.
AMENDMENT I and XIV.
(PETITIONERS ADDITIONAL STATEMENT OF FACT OF THE CASE)
Between December 19. 2018 and June 10. 2019:1 filed (5) MOTIONS for Final
JUDGMENT as a Matter of Law. Doc. 41, 46, 50, 65, 68. In Ref. (Doc. r46) MOTION
FOR COURT TO MOVE ON JUDGMENT PURSUANT TO FED. R. CIV. P. 52(a)(1)
17

AS PLAINTIFF IS ENTITLED TO COURT ENTRY OF "FINAL JUDGMENT” - AS
“RULE OF LAW” AND "AS A MATTER OF LAW" where I gave the United States
fair notice of my new and additional Claim of Discrimination and Civil Rights
Violations where I claimed Civil Chief Diana Ryan and AUSA Alison Ramsdell
Violated the 14th Amendment Section 1 of the Federal Constitution and Deprived me
of my Civil Rights and Civil Liberties and Deprived me of Equal Protection of the
Laws while acting under the color of federal laws on behalf of the United States of
America. In Ref. (Doc. r46) I also attached a new Form SF-95 Claim for Damages
and demanded $26,400,000.00 for both claims. I have included at the Appendix
Additional Information regarding the Facts of how the Civil Docket entries were
edited and modified in 18-4034 between December 19. 2018: and June 10. 2019: that
includes: what’s reported on www.pacermonitor.com. what’s reported on (e.g., Id. at
App. - V 2) the CIVIL DOCKET FOR CASE #: 4:18-cv-04034-LLP; provided to the
8th Circuit in Appellate Case 20-2137, filed 6/8/2020. And the Fact of what the
document is ‘titled” that I filed in 18-4034. (6 MONTHS LATER)
On June 10. 2019: (e.g.9 Id. at App. - P) United States District Court Judge
Lawrence L. Piersol filed In Ref. (Doc. r69) ORDER ON MOTIONS: (Thepertinent
information

including handwritten notes on these contentions are

highlighted in yellow and is attached at Appendix - P to the Petition.)
(PETITIONERS ADDITIONAL STATEMENT OF FACT OF THE CASE)
Wherefore, United States District Court Judge Lawrence L. Piersol denied 5
MOTION FOR COURT TO MOVE ON JUDGMENT PURSUANT TO FED. R. CIV.
P. 52(a)(D AS PLAINTIFF IS ENTITLED TO COURT ENTRY OF "FINAL
JUDGMENT” - AS “RULE OF LAW” AND "AS A MATTER OF LAW," Wherefore the
Supreme Court can understand the extent of the Fraud and Obstruction of Justice in
the case. At the Appendix is Additional Information regarding the Facts of the
“conspiracy” to conceal the cover-up the Merits of this (F.T.C.A.) Case between June
17. 2019: and March 17. 2020.

18

On September 18, 2019; I filed In Ref. (Doc. r95) Memorandum in Support
for Court to Deny/Dismiss Defendant United States of America85 ,86 ,88 ,89 ,92 to
Support a Showing of Good Cause for Court to Move on MOTION FOR JUDGMENT
AS A MATTER OF LAW.
On September 20, 2019: the (USA) filed In Ref, (Doc. r97) MOTION for
SUMMARY JUDGMENT bv United States of America. (Drulev (USA), Delia).
On December 9. 2019:1 filed In Ref. (Doc. rl04) MOTION FOR ENTRY OF
DEFAULT AND FOR ENTRY OF DEFAULT JUDGMENT.
On March 17, 2020; (e.gId. at App. - Q 1) United States District Court,
Judge Lawrence L. Piersol filed In Ref. (Doc. r!09) MEMORANDUM OPINION
AND ORDER: (The pertinent information including handwritten notes on
these contentions are highlighted in yellow and is attached at Appendix - O
I to the Petition.)
On March 17, 2020; (e.g., Id. at App. - Q 2) United States District Court,
Judge Lawrence L. Piersol filed In Ref. (Doc. rllO) JUDGMENT: “Summary”
Judgment in favor of the United States of America. Petitioner claims this
JUDGMENT is IN VALID. (The pertinent information including handwritten
notes on these contentions are highlighted in yellow and is attached at
Appendix - Q 2 to the Petition.)
(PETITIONERS STATEMENT OF FACT OF THE CASE)
I, Petitioner Daniel Loring, “claim” that (Doc. rl09) MEMORANDUM
OPINION AND ORDER: is nothing but false statements and false claims, ambiguous
self-contradicting half-truths and a misrepresentation of the case where if the truth
be told by Judge Lawrence L. Piersol, I would have been granted Final Judgment on
the Merits of the case back in June 2018.
In Ref. (rl09) page l-lst paragraph: “Plaintiff Daniel Loring ("Loring")
brought this pro se lawsuit against the UNITED STATES OF AMERICA alleging

19

legal malpractice by two Assistant United States Attorneys ("AUSAs") who handled
a civil lawsuit filed under the Fair Housing Act on Loring’s behalf.” Compared to:
In Ref. (r38) vase l-lst paragraph: “Plaintiff Daniel Loring ("Loring") brought
this pro se lawsuit against the UNITED STATES for the alleged misconduct of two
Assistant United States Attorneys in their handling of an earlier civil lawsuit filed
under the Fair Housing Act on Loring's behalf.”
Where In Ref. (r!09) the last sentence of the 1st paragraph: “For the following
reasons, the Court grants the UNITED STATES' motion for summary judgment and
denies the remaining motions.”
In Ref. (Doc. r97) MOTION for SUMMARY JUDGMENT by UNITED
STATES OF AMERICA. (Drulev (USA). Delia).
Where In Ref. (r!09) bottom parasraph-3rd line: Id. Though “Loring pleaded
facts sufficient to state a legal malpractice claim.” Compared to:
In Ref. (r38) bottom page 9, 10: While “Loring has pled enough facts to state a
legal malpractice claim that is plausible on its face and gives the United States fair
notice of the claim.
(PETITIONERS STATEMENT OF FACT OF THE CASE)
(I “claim” that Factual Documentary Evidence proves mv “claims.”)
On April 14, 2020: (e.g., Id. at App. - R) In Ref. (Doc. r!17)
MEMORANDUM

OPINION

AND

ORDER

DENYING

MOTION

FOR

RECONSIDERATION. (The pertinent information including handwritten
notes on these contentions are highlighted in yellow and is attached at
Appendix - R to the Petition.)
On July 20. 2020: (e.g., Id. at App. - S) In Ref. (Doc. r!24)
MEMORANDUM OPINION AND ORDER DENYING MOTION FOR STAY. (The
pertinent information including handwritten notes on these contentions are
highlighted in yellow and is attached at Appendix - S to the Petition.)

20

(PETITIONERS STATEMENT OF FACT OF THE CASE)
On www.pacermonitor.com, these 3 documents were filed and submitted into
the Civil Docket Records for Case 18-4034, and state: filed by Daniel Loring. I did not
in any such way file these records with the District Court, for the simple fact being
that I could not have; they were posted the same day the United States Court of
Appeals for the Eighth Circuit posted them on www.pacermonitor.com, and I had not
received them in the mail until days after these postings.
•

On March 10, 2021: the United States District Court filed (Doc. rl26) PER
CURIAM OPINION of USCA as toll9 Notice of Appeal, filed bv Daniel Loring.
(TAD

•

On March 10, 2021: the United States District Court filed (Doc. rl27)
JUDGMENT of USCA affirming the District Court as toll9 Notice of Appeal,
filed bv Daniel Loring. (TAD

•

On April 28. 2021: the United States District Court filed (Doc. rl28)
MANDATE from 8th Circuit COA Affirming the decision of the District Court
as toll9 Notice of Appeal, filed bv Daniel Loring. (TAD

(PETITIONERS STATEMENT OF FACT OF THE CASE)
I, Petitioner Daniel Loring, “Claim” that (USA) Assistant United States
Attorney Delia M Druley, Assistant United States Attorney Meghan K. Roche and
United States District Court Judge Lawrence L. Piersiol while acting under the color
of federal law has unequivocally violated the STANDARDS AND CODE OF
CONDUCT and violated 1725. Protection Of Government Processes — Obstruction
Of Pending Proceeding — 18 U.S.C. 1505 Section 1505 also specifically prohibits
anyone from withholding, misrepresenting, removing from any place, concealing,
covering up, destroying, mutilating, altering, or by other means falsifying any
documentary material answers to written interrogatories, or oral testimony that is
the subject of a proper investigative demand under the Antitrust Civil Process Act,
15 U.S.C. 1311-14. with the intent of 910. KNOWINGLY AND WILLFULLY The
prohibition of 18 U.S.C. S 1001 requires that the false statement, concealment or
21

cover up be "knowingly and willfully" done, which means that "The statement must
have been made with an intent to deceive, a design to induce belief in the falsity or
to mislead, 18 U.S.C. S 1001 (false statements), 18 U.S.C. S 287 {false claims) and
has Deprived me of my Federal and Constitutional Rights and has Deprived me of
my Right to Due Process of Law by his Deceitful Misrepresentation of the Case and
Fraud to Obstruct Justice and conceal the wrongdoing. I “claim” the United States
District Court ORDER SUMMARY JUDGMENT in favor of the United States of
America is Fraudulent, in-valid and is not Final Judgment on the Merits of the Case.
(PETITIONERS ADDITIONAL STATEMENT OF FACT OF THE CASE)
I, Petitioner, Daniel Loring, do solemnly “claim” that the pertinent information
highlighted in yellow and includes my handwritten notes regarding these contentions
is Iron Clad Proof of my “claim” of a “Conspiracy” between the (USA) United States
Attorney “Office” and the United States District Court to intervene in this
Administrative Proceeding in order to conceal the Merits of this (F.T.C.A.) Legal
Malpractice Civil Suit. And by Defrauding the Government, to Defraud the United
States and to Defraud the Public with the intent to mislead the Public and make it
look as if Petitioner Daniel Loring filed a frivolous Legal Malpractice Lawsuit against
the United States of America in the United States District Court and “cover-up” the
“multitude” of criminal United States Statutes in (Doc. rl4) Motion for Summary
Judgment; and whereby Deceit, Misrepresentation and Fraud to Obstruct Justice,
the parties to the case acting as co-conspirators have violated: Federal Laws and
Federal Statutes fisted at page 27 of Appendix. The Public and the Citizens of South
Dakota are unknowingly at risk for being victimized by these wrongdoers who are
unjustly trying to settle this case.
For all the reasons above and for the “claims” that I just made that I also
argued in my NOTICE of Appeal, BRIEF and REPLY BRIEF to the United States
Court of Appeals for the 8th Circuit. I will provide a general overview of the case in
the United States Court of Appeals for the 8th Circuit. Where if you read the CLERKS

22

I

ORDER(s) I believe the CLERK ORDER(s) spell out a different conclusion to the case
then SUMMARY JUDGMENT in favor of the United States of America is Affirmed.
Attached (e.g., Id. atApp. -T) is a copy of the 8th Circuit United States Court
of Appeals Civil Docket Record for Case 20-2137. Daniel Loring v. United States of
America et. al.. on www.nacermonitor.com. Wherefore, on the Dashboard, under Case
#. TYPE: CIVIL: UNITED STATES AS A PARTY. In the Record for Case 20-2137,
The Appellee’s BREIF is captioned: DANIEL LORING V. UNITED STATES et.al.
(The pertinent

information

including

handwritten

notes on

these

contentions are highlighted in yellow and is attached at Appendix - T to the
Petition.)
(Filed on June 8, 2020) in the Eighth Circuit United States Court of Appeals,
20-2137, (e.g., Id. at App. - U), Civil case docketed. 4 pages: PRO SE Docketing
Letter. (The pertinent information including handwritten notes on these
contentions are highlighted in yellow and is attached at Appendix - U to the
Petition.)
Attached (e.g., Id. at App. - V), A copy of the (41 Page Paper Document)
“TRANSMITTAL” of the United States District Court, CIVIL DOCKET FOR CASE
#: 4:18-cv-04034-LLP; at (e.g., Id. at App. - V1), Originating court document filed
consisting of notice of appeal filed 6/4/2020. (The pertinent information including
handwritten notes on these contentions are highlighted in yellow and is
attached at Appendix -VI to the Petition.)
At (e.g., Id. at App. - V 2), docket entries, memorandum opinion and order
filed 3/17/2020, judgment filed 3/17/2020, and memorandum opinion and order
filed 4/14/2020. (The pertinent information including handwritten notes on
these contentions are highlighted in yellow and is attached at Appendix - V
2 to the Petition.)
Attached(e.g., Id. atApp. - W) A copy of pages 57 through 69 of the 84 pages
of Facts to support the Merits of the case in support of Motion for Substantive Relief
23

on the Merits of the case. (The pertinent information including handwritten
notes on these contentions are highlighted in yellow and is attached at
Appendix - W to the Petition.)
(Filed on August 11, 2020) in 20-2137, (e.g., Id. at App. - X), CLERK
ORDER. (The pertinent information including handwritten notes on these
contentions are highlighted in yellow and is attached at Appendix - X to the
Petition.)
(Filed on August 19, 2020) in 20-2137, (e.g., Id. at App. - Y), CLERK
ORDER. (The pertinent information including handwritten notes on these
contentions are highlighted in yellow and is attached at Appendix - Y to the
Petition.)
(Filed on September 9. 2020) in 20-2137, (e.g., Id. at App. - Z), CLERK
ORDER. (27ie pertinent information including handwritten notes on these
contentions are highlighted in yellow and is attached at Appendix - Z to the
Petition.)
(Filed on September 17. 2020) in 20-2137, (e.g., Id. at App. - AA 1),
CLERK ORDER: (Filed on September 17, 2020) in 20-2137, (e.g., Id. at App. AA 2), CLERK ORDER: Appellant has filed a brief in this appeal. The motion for
relief filed by Appellant Mr. Daniel Loring in 20-2137, f4939873-2] is hereby ordered
taken with the case for consideration by the panel to which this case is submitted for
disposition on the merits. (The pertinent information including handwritten
notes on these contentions are highlighted in yellow and is attached at
Appendix - AA 1 and Appendix - AA 2 to the Petition.)
(Filed on March 10. 20211 in 20-2137, (e.g., Id. at App. - BB) the Counsel
Opinion Letter. The 8th Circuits (UNPUBLISHED) PER CURIAM Opinion and the
8th Circuits JUDGMENT is AFFIRMED. (The pertinent information including
handwritten notes on these contentions are highlighted in yellow and is

24

I

attached at Appendix - BB 1. Appendix - BB 2. and Appendix BB 3 to the
Petition.)

(PETITIONERS STATEMENT OF FACT OF THE CASE)
At Appendix - BB 1. The 8th Circuit United States Court of Appeals caption:
Daniel Loring v. United States of America et.al. At Appendix

BB 2

(UNPUBLISHED) PER CURIAM OPINION and at Appendix-BB 3 JUDGMENT.
The 8th Circuit caption: Daniel Loring v. United States of America. U.S. Department
of Justice. Executive Office for United States Attorney’s General Counsel.
t

(Filed on March 29, 20211 in 20-2137, (e.g., Id. at App. - CC) A copy of
APPELLANT’S PETITION FOR EN BANC REHEARING AND ALSO FOR
REHEARING BY PANEL filed by Appellant Mr. Daniel Loring. (The pertinent
information

including handwritten notes on

these contentions are

highlighted in yellow and is attached at Appendix - CC to the Petition.)
(Filed on April 5. 2021) in 20-2137, (e.g., Id. at App. - DD) (The pertinent
information

including handwritten notes on

these contentions are

highlighted in yellow and is attached at Appendix-DD 1 and Appendix-DD
2 to the Petition.)
1. Conv of MOTION TO AMEND/CORRECT PETITION......
2. The United States Court of Appeals, 8th Circuits PRO SE Notice of Docket Activity
dated April 5. 2021: MEMORANDUM of Appellant in support of petition for en
banc rehearing, petition for rehearing by panel. Document Description:
MOTION TO AMEND/CORRECT PETITION.. ... On April 5. 2021 Entered
in 20-2137; On www.pacermonitor.com, MEMORANDUM of Appellant in
Support......
(Filed on April 19. 20211 in 20-2137, (e.g., Id. at App. - EE) 8th Circuits
ORDER: The petition for rehearing en banc is denied. The petition for rehearing by
panel is also denied.

25

»
i

(Filed on April 28. 2021) in 20-2137, (e.g.9 Id. at App. - FF) 8th Circuits
ORDER: Appellant’s motion to stay the mandate is denied.
(Filed on April 28, 2021) in 20-2137, (e.g., Id. at App. - GG) 8th Circuits
MANDATE.
REASONS FOR GRANTING THE EXTRAORDINARY WRIT
I, Petitioner Daniel Loring, “claim” that I have been denied a United States
Courts ORDER of Final JUDGMENT on the Merits of the Case in this (F.T.C.A.)
Legal Malpractice Action 12 times by the lower Courts. Wherefore, the lower courts
have “OVERLOOKED” the Material Facts and have “MISAPPREHENDED” the
MERITS of the Case. The Supreme Court of the United States has been given both
Original Jurisdiction and Appellate Jurisdiction to hear cases. To justify the granting
of any such writ, the petition must show that the writ will be in aid of the Court’s
appellate jurisdiction, that exceptional circumstances warrant the exercise of the
Court’s discretionary powers, and that adequate relief cannot be obtained in any
other form or from any other court.
CONCLUSION
WHEREFORE, Pursuant to 42 U.S.C. § 1983. under “Biue/is”; I include new
and additional intentional tortious claims that the (USA) United States Attorney by
and through Assistant United States Attorney Delia M. Druley and Meghan K. Roche
knowingly, willfully and recklessly filed “unsanctioned” documents to intervene in
this Administrative Proceeding with the intention to cover-up wrongdoing and
conceal the misconduct of the United States Attorney Office and the United States
District Courts Obstruction of Justice, Civil Fraud and Conspiracy to Defraud the
United States in the underlying Federal Fair Housing Act Civil Rights Disability
Discrimination Case/Lawsuit in question; and violated the Federal Statutes listed in
the Appendix and violated the United States Constitution 14th Amendment; and
maliciously caused me to suffer damages of much intentional distress from the
Depravation of my Rights to Citizenship and from the Depravation of my Rights to

26

Due Process of Law and “Abused the Public’s Trust” by their “Abuse of Process” while
acting under the color of federal law.
WHEREFORE, Pursuant to 28 U.S.C. $ 2680 I include new and additional
intentional tortious claims that United States District Court Judge Lawrence L.
Piersol knowingly, willfully and recklessly violated the Code of Conduct Canons in
“collusion” with the (USA) to intervene in this Administrative Proceeding with the
intention to cover-up wrongdoing and conceal the misconduct of the United States
Attorney Office and the United States District Courts Obstruction of Justice, Civil
Fraud and Conspiracy to Defraud the United States in the underlying Federal Fair
Housing Act Civil Rights Disability Discrimination Case/Lawsuit in question; and
violated the Federal Statutes listed in the Appendix and violated the United States
Constitution 14th Amendment; and maliciously caused me to suffer damages of much
intentional distress from the Depravation of my Rights to Citizenship and from the
Depravation of my Rights to Due Process of Law while acting under the color of
federal law.
WHEREFORE, Pursuant to Federal Rule Civil Procedure Rule 60. Relief from
a Judgment or Order (b) GROUNDS FOR RELIEF FROM A FINAL JUDGMENT,
ORDER, OR PROCEEDING. (3) fraud (whether previously called intrinsic or
extrinsic), misrepresentation, or misconduct by an opposing party; (4) the judgment
is void; (5) the judgment has been satisfied, released, or discharged; it is based on an
earlier judgment that has been reversed or vacated; or applying it prospectively is no
longer equitable; or (6) any other reason that justifies relief.
WHEREFORE, Pursuant to 28 U.S.C. $ 2675(a) The United States Supreme
Court has recognized that (the most natural reading of ($ 2675(a)) indicates that
congress intended to require complete exhaustion of Executive remedies before
invocation of the judicial process.” (McNeil v. United States, 508 U.S. 106 , 112
(1993)). Compliance with $ 2675(a)’s presentment requirement is a jurisdictional
precondition to filing an FTCA suit in federal district court.” (Mader v. United
States, 654 F.3d 794, 805 (8th Cir. 2011)(en banc)). Pursuant to The United States
27

does not dispute that a legal action is properly brought under the FTCA. Pursuant to
The United States does not dispute that it had a duty to provide Petitioner with
adequate legal representation in the Fair Housing Act case.
THEREFORE, Pursuant to Rules of the Supreme Court, Rule 17. Procedure in
an Original Action: and Supreme Court Rule 20. Pursuant to the Extraordinary
Circumstances in the underlying Federal Fair Housing Act Civil Rights Disability
Discrimination Case/Lawsuit. Pursuant to the Extraordinary Circumstances in this
(F.T.C.A.) Whistleblower Legal Malpractice LANDMARK Decision Case and Civil
Action Lawsuit. I, Petitioner Daniel Loring, respectfully request, asks and prays for
the Supreme Court of the United States to grant this Petition for Extraordinary Writ
of Certiorari because of the extraordinary circumstances within the Courts Record of
the Case. And I, Petitioner Daniel Loring, respectfully request, asks and prays for the
Supreme Court of the United States to invoke its discretionary powers given by
Article III of U.S. Constitution, 28 U. S. C. § 1254, §1651, and grants Petitioner Daniel
Loring the Supreme Court of the United States ORDER; Final Judgment on the
Merits of the Case and satisfies the relief sought and my Demand of $29,997,000.00
on Form SF-95 within 30 days for all the damages I “claimed” herein this Petition for
Extraordinary Writ of Certiorari and herein the United States Courts Public CIVIL
DOCKET RECORD FOR CASE #: 4:18-cv-04034-LLP.
Respectfully and Honorably Submitted,

Daniel Loring, Petitioner/Appellant Pro Se
512 S. Spring Ave. Apt. 306
Sioux Falls, SD 57104
(605)310-3808

28

August

021

